<html>
<title> - U.S.-PAKISTAN RELATIONS: REASSESSING PRIORITIES AMID CONTINUED CHALLENGES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


    U.S.-PAKISTAN RELATIONS: REASSESSING PRIORITIES AMID CONTINUED 
                               CHALLENGES

=======================================================================


                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 6, 2018

                               __________

                           Serial No. 115-110

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                __________
                                 
                                 
                   U.S. GOVERNMENT PUBLISHING OFFICE                    
28-541PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fb9c8b94bb988e888f939e978bd5989496d5">[email&#160;protected]</a>                                
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                     TED S. YOHO, Florida, Chairman
DANA ROHRABACHER, California         BRAD SHERMAN, California
STEVE CHABOT, Ohio                   AMI BERA, California
TOM MARINO, Pennsylvania             DINA TITUS, Nevada
MO BROOKS, Alabama                   GERALD E. CONNOLLY, Virginia
SCOTT PERRY, Pennsylvania            THEODORE E. DEUTCH, Florida
ADAM KINZINGER, Illinois             TULSI GABBARD, Hawaii
ANN WAGNER, Missouri
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Seth Jones, Ph.D., Harold Brown Chair, director, Transnational 
  Threats Project, Center for Strategic and International Studies    10
Mr. Jeff Smith, research fellow, South Asia, Heritage Foundation.    23
Mr. Munawar ``Sufi'' Laghari, executive director, Sindhi 
  Foundation.....................................................    39
Aqil Shah, Ph.D., Wick Cary assistant professor of south asian 
  politics, Department of International and Area Studies, 
  University of Oklahoma.........................................    49

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Ted S. Yoho, a Representative in Congress from the 
  State of Florida, and chairman, Subcommittee on Asia and the 
  Pacific: Prepared statement....................................     4
Seth Jones, Ph.D.: Prepared statement............................    12
Mr. Jeff Smith: Prepared statement...............................    25
Mr. Munawar ``Sufi'' Laghari: Prepared statement.................    41
Aqil Shah, Ph.D.: Prepared statement.............................    51

                                APPENDIX

Hearing notice...................................................    72
Hearing minutes..................................................    73
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    74

 
    U.S.-PAKISTAN RELATIONS: REASSESSING PRIORITIES AMID CONTINUED 
                               CHALLENGES

                              ----------                              


                       TUESDAY, FEBRUARY 6, 2018

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:00 p.m., in 
room 2200 Rayburn House Office Building, Hon. Ted Yoho 
(chairman of the subcommittee) presiding.
    Mr. Yoho. Thank you, everybody, for being here.
    The U.S.-Pakistan Relations: Reassessing Priorities Amid 
Continued Challenges is an important topic. And on the Asia-
Pacific Subcommittee on Foreign Affairs we look forward to 
addressing this, and we have invited you here because of your 
expertise.
    And you guys know how this works with the button in front 
of you. Make sure your microphone is turned on. You'll have a 
green light. It goes yellow and red and then you'll hear the 
gavel.
    We have votes that are going to come up between 2:30 and 
3:00 o'clock and typically what we do is we take a break. We 
ask if you can stay to hear your input when we come back and we 
will reconvene as quickly as we can.
    So, with that, we will go ahead and start with the opening 
statements. And, again, I thank you for being here.
    The United States has sought a cooperative relationship 
with Pakistan for nearly 20 years despite incompatible goals. 
Over the last year, this contradiction has come to an 
inevitable head.
    As we meet today, the U.S.-Pakistan relationship is 
devolving. Faced with few good options in our fight to 
stabilize Afghanistan, the United States has spent about $33 
billion on Pakistan since 2001.
    For years now, U.S. expenditures for Pakistan has decreased 
as it becomes more and more evident that our priorities are 
just not in alignment.
    Over the last 6 months, the administration has taken steps 
to sharply accelerate this trend. Though it's long overdue, the 
United States is finally facing the reality that the U.S.-
Pakistan relationship needs to change.
    Counterterrorism cooperation has been central to this 
relationship but the reality is that Pakistan has never shared 
the United States commitment to eliminate terrorist activity in 
South Asia.
    We won't soon forget that Osama bin Laden was hiding in 
plain sight in Pakistan or that Dr. Afridi remains in prison 
for the work that he did to help us capture Osama bin Laden. 
And this same attitude continues today.
    Pakistan wants a government in Kabul that it can control or 
no government at all. That is why Pakistan continues to give a 
pass to extremists who seek to destabilize Afghanistan or 
attack India.
    Many Members of Congress have argued for this dramatic 
recalibration of the U.S.-Pakistan relationship. But as we move 
to the next stage, it's essential that we get it right.
    No matter what, Pakistan will continue to be central to 
U.S. strategy in South Asia and is increasingly important to 
the administration's emerging Indo-Pacific strategy.
    For decades, Pakistan and China have shared what they call 
an all-weather friendship and have drawn even closer in recent 
years. Pakistan has doubled down on its relationship with China 
as tensions with the United States have grown.
    The China-Pakistan economic corridor is a central component 
of China's Belt and Road Initiative offering economic benefits 
for Pakistan in exchange for China's direct access to the 
Arabian Sea.
    As many expected, this economic initiative has also begun 
to take on a military character. Last month, it was revealed 
that China will build its second overseas military facility in 
conjunction with a port at the Pakistani city of Gwadar. This 
is the second one in a short period of time with the other one 
being in Djibouti.
    Pakistan's internal dynamics are also challenging to the 
continued partnership with the United States. Religious freedom 
and human rights concerns are longstanding and not improving.
    Now fundamentalists and extreme voices are taking on a new 
prominence in Pakistani politics. Further divergence between 
Pakistan and the United States on values and principles will 
make cooperation all the more difficult and widen the gaps 
between our strategic priorities.
    If 2017 laid the groundwork for a recalibration of U.S.-
Pakistan relationships, 2018 will help decide its future 
course. The President and Congress will need to determine how 
we want to shape and fund this relationship, going forward, 
particularly with budget season approaching.
    So I look forward to hearing the panel's thoughts today and 
hope their testimonies will inform a number of lingering 
questions as we work on the issues throughout the coming year.
    Are U.S. and Pakistani goals for South Asia fundamentally 
compatible? What elements of military and counterterrorism 
cooperation must be maintained and what--and which need to be 
reworked?
    How does Pakistan play in U.S. strategic priorities in the 
Indo Pacific in our larger competition with China?
    And finally, what is the future of Pakistan society and 
government, and is Pakistan becoming less tolerant and a less 
suitable partner for the United States of America?
    I thank the panel for joining us to share their expertise 
on these issues and any other member--any others that the 
members may wish to raise.
    And with that, members present will be permitted to submit 
written statements to be included in the official hearing 
record.
    Without objection, the hearing record will remain open for 
5 calendar days to allow statements, questions, and extraneous 
material for the record to length limitations in the rules and 
the witnesses' written statements will be entered into the 
hearing record.
    I now turn to the ranking member, Mr. Sherman, for any 
remarks he may have.
    [The prepared statement of Mr. Yoho follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Sherman. Thank you, Mr. Chairman. Thank you for holding 
this hearing.
    Pakistan is a highly consequential nuclear state. But all 
too often, we look at Pakistan as just a single inanimate 
entity.
    With these hearings, we can look inside Pakistan. We have 
witnesses that can give us an understanding of what's going on 
in the country with its political, regional, and ethnic groups 
and the state of Pakistani democracy, such as it is.
    Since 2001, the United States has provided to Pakistan $11 
billion in economic aid, and $8 billion in security aid. That's 
$19 billion.
    In addition to that, we have paid $14 billion in coalition 
support funds which we are told the Pakistani military has used 
in anti-terrorist efforts in support of our war in Afghanistan.
    On the one hand, we have seen small improvements in the 
economic and political developments in Pakistan. We have, at 
least nominally, a civilian government that was elected in 
2008, then with elections also in 2013, and an election 
scheduled for later this year.
    Pakistan has a small but growing middle class, a semi-
active civil society and press, and a judiciary that has at 
times confronted the state.
    And USAID projects have helped in areas of energy, 
agriculture, education, and health, including helping to 
provide 3,000 megawatts of electric power generation to 
Pakistan's national grid, management practices and technologies 
for 300,000 farmers, repair or build 1,300 schools, and train 
2,700 teachers.
    Still, we have challenges. In the area of civil/military 
relations, the military appears to have the upper hand. It 
influences or controls Pakistani foreign policy, especially 
vis-a-vis Afghanistan and India, and also seems to play a 
outsized role even on domestic policy.
    On issues of federalism, the Pakistani state dominates the 
provinces of Sindh, Balochistan, and the Pashtun areas, often 
with little regard for the citizens in those areas.
    Most egregiously, even though thousands of Pakistanis have 
lost their lives in terrorist attacks in the past decade, 
Pakistani security and intelligence agencies have not been 
playing or often are not playing a constructive role with 
regard to terrorism.
    Instead, they provide safe haven to terrorist groups that 
attack Afghanistan and India and are linked to grave human 
rights violations in Sindh and other parts of Pakistan.
    The United Nations Human Rights Committee and the State 
Department's report on human rights have noted serious concerns 
about hundreds of cases of extrajudicial killings and forced 
disappearance in Pakistan, particularly in Sindh.
    Among those hundreds of cases, we have with us a witness 
who has been directly affected. In November 2015, Sindhi leader 
Dr. Anwar Laghari, the brother of one of our witnesses, was 
brutally murdered in Pakistan.
    The Pakistani Government has not been very responsive to 
numerous inquiries made by the State Department at the request 
of myself and other Members of Congress.
    The reason for Dr. Laghari's death and why his perpetrators 
have not been brought to justice, these are questions the 
Pakistani Government must still answer.
    And then to compound that tragedy, on October 30th last 
year, Dr. Anwar Laghari's son, Asad Laghari, was found dead in 
suspicious circumstances and is suspected to be a victim of 
poisoning.
    I met Asad Laghari when he was in Washington. He was 
pursuing a Master's degree here in the United States. He was 
preparing to help his country deal with water issues.
    On August 18th last year, I wrote to the State Department 
about these issues with six colleagues--three Democrats and 
three Republicans. I have also raised these issues on the House 
floor.
    We must focus on an end to extrajudicial killings and 
enforced disappearances in Sindh and elsewhere in Pakistan. We 
must place a high priority on advancing genuine human rights 
and democracy in Pakistan, not just for the people of Pakistan 
who would benefit from human rights and democracy but because a 
democratic Pakistan that respects the rule of law will be a 
true ally of the United States.
    As the chairman brought up, we are concerned still, of 
course about the compound that Osama bin Laden had. He wasn't 
hiding in some nondescript apartment--a mile from the West 
Point of Pakistan, in a large protected compound.
    But those in the ISI who must have known bin Laden was 
there are still at high-ranking positions in the Pakistani 
Government. Whereas Dr. Afridi, who helped us capture and kill 
Osama bin Laden, is in prison. Kind of tells you which side is 
in control in Pakistan.
    The Trump administration has strongly condemned Pakistan 
for its safe havens for terrorist organizations including the 
Taliban. We could develop a political strategy to address 
Pakistan's concerns about India and Afghanistan.
    We should consider officially recognizing the Durand Line 
as the international border between Afghanistan and Pakistan 
rather than just say that it is a matter to be discussed by the 
countries. And with the understanding that we gain here in 
these hearings, I hope that we develop a more effective policy 
toward Pakistan that understands its internal ethnic, 
religious, and political dynamics.
    I look forward to hearing from our witnesses. Thank you, 
Mr. Chair.
    Mr. Yoho. I'd like to thank the ranking member.
    Next we will turn to Mr. Chabot of Ohio, who, incidentally, 
used to be the chairman of this committee.
    Mr. Chabot. Thank you, Mr.----
    Mr. Yoho. And I aspire to be as talented as he is. 
[Laughter.]
    Mr. Chabot. Thank you, Mr. Chairman.
    Our relationship with Pakistan continues to be marked with 
frustration, oftentimes a lack of cooperation, and then 
sometimes it seems that there is mutual agreement and 
engagement and things are looking positive.
    I want to give a tip of the hat to the gentleman from 
California here, Mr. Rohrabacher, who oftentimes has positions 
which I don't always agree with and other members don't always 
agree with.
    But in his defense of Dr. Afridi, I have to say he's been 
relentless. He's been committed. He's never given up and he's 
absolutely right.
    The treatment that Dr. Afridi got, a friend of this country 
who actually--information which led--you'll have some folks, 
oh, we are not sure about this. But in everything that I've 
seen it led to the end of Osama bin Laden, who killed so many 
of our fellow citizens on that horrible day, and then to have 
him thrown in jail, and this is supposed to be a government 
that's our friend and that we give pretty substantial amounts 
of aid to every year.
    And I've generally voted for that aid over the years 
because I do think that, you know, if we cut it off they are 
going to be even closer to China and there is going to be 
ramifications there and they have nuclear weapons and all the 
rest.
    So I understand we have to--we have to get along. We need 
to work together. But their treatment of Dr. Afridi is 
outrageous. It's indefensible and it should change, and I would 
hope sooner rather than later.
    But I want to commend my colleague from California for 
never giving up on that and that's in meetings, at Republican 
conferences, in the face of leadership and demanding why they 
are not doing more and why we are letting Pakistan just 
continue to keep this doctor in a dungeon.
    It's despicable, and thank you, Dana. We appreciate it. 
Until you do something bad and then I'll have to disagree with 
you. [Laughter.]
    Mr. Yoho. No, thank you for bringing that up because I have 
to echo that. I mean, Mr. Rohrabacher has been out there 
consistently, hammering that home pretty much every meeting we 
have and I thank you for that.
    Next, we will turn to Dr. Bera from California for an 
opening statement.
    Mr. Bera. Thank you, Mr. Chairman, and to the ranking 
member.
    Obviously, there are a lot of complicated regions in the 
world, whether it's the Middle East or the Korean Peninsula.
    But as someone who focuses on South Asia, I would argue 
that this is one of the most complicated regions in the world.
    You know, whether it's our mission in Afghanistan, you 
know, you bring in India and Pakistan and, you know, it gets 
complicated.
    Whether it is the rise of India as a growing economy, as 
one that's being welcomed into the League of Nations and 
leaders in the world and the amount of investment, you know, 
what does that portend to the India--Indo-Pak relationship as 
the economy--India becomes a stronger nation and garners more 
attention.
    The hope is that Pakistan takes notice of some of the 
economic reforms that are taking place, some of the civilian 
reforms and some of the anti-corruption events, and you try to 
find a resolution between India and Pakistan.
    You know, there are areas where I think the U.S., working 
with other nations, you know, to address Pakistan's very 
concerning energy needs, their electrical grid, areas where you 
got to take baby steps.
    But how do you create some sort of, you know, small 
dialogue and trust? How do we support civilian government in 
Pakistan? How do we create those civilian institutions that 
will be necessary to create stability and a democracy?
    Again, none of these are easy answers. You know, what role 
does China play here? You know, does China and--you know, does 
Pakistan--as the U.S. relationship with Pakistan changes, does 
Pakistan run to China as a counterweight?
    I would argue that's the wrong approach because China has 
shown a history of really China-centric involvement.
    That said, does China take a more responsible role in 
helping create stability as a global leader? So, again, none of 
these are easy answers and, you know, I think we all have to 
look at all of this together but from the interest of Pakistan, 
looking at their long-term stability, their long-term--you 
know, they have an educated population.
    They've got a diaspora here in the United States that's 
very interested in looking for a path forward and resolving 
tensions and lowering tensions between India and Pakistan and 
hoping to see a more democratic Pakistan.
    So, again, I look forward to the witnesses and thank you 
for calling this hearing.
    Mr. Yoho. Thank you for your comments.
    And I want you guys to understand that when we have these 
hearings your input is so valuable. It goes into ideas that we 
come up with legislation to help strengthen our foreign policy 
that we send to the state or the administration. And so we 
really value you being here and we want to thank you for your 
time.
    What I want to do is just introduce all four of you and 
then we will start with you, Dr. Jones, and your statement.
    Dr. Seth Jones, Harold Brown chair and director 
Transnational Threats Project at the Center for Strategic and 
International Studies; Mr. Jeff Smith, research fellow for 
South Asia at the Heritage Foundation; Mr. Munawar Sufi 
Laghari, executive director at the Sindhi Foundation; Dr. Shah, 
Wick Cary assistant professor of South Asian politics in the 
Department of International and Area Studies at the University 
of Oklahoma.
    Again, thank you for being here. Dr. Jones, your opening 
statement.
    Mr. Chabot. Mr. Chairman, if I could speak out of order for 
a second.
    Mr. Yoho. Please.
    Mr. Chabot. We have got actually a whole bunch of chairs 
over here if the folks over there might want to sit down and--
--
    Mr. Yoho. You know, and I appreciate you pointing that out 
because I also want everybody just to kind of glance around the 
room. See how packed this room is.
    People are interested about this topic, about our 
relationships with Pakistan, on both sides. And so that's why 
this room is so crowded and over standing.
    But feel free to come across if you got a moment right now, 
and thank you for pointing that out.
    Dr. Jones, go ahead.

 STATEMENT OF SETH JONES, PH.D., HAROLD BROWN CHAIR, DIRECTOR, 
    TRANSNATIONAL THREATS PROJECT, CENTER FOR STRATEGIC AND 
                     INTERNATIONAL STUDIES

    Mr. Jones. Thank you, Chairman Yoho, Ranking Member 
Sherman, and distinguished members of the subcommittee for 
allowing us to testify on this important subject that I think 
all of you that have spoken so far have indicated.
    I want to keep my remarks brief and focus on two issues. 
One is the security situation which is what I focused on, both 
in Pakistan and the region, and the second is just to lay out 
potential options for consideration.
    As I look at the security situation in Pakistan, what's 
interesting as we looked at the data is actually there is been 
a dramatic drop in violence levels in Pakistan, especially over 
the past 4 years.
    Attacks have declined fairly significantly, probably in 
part a function of Pakistan's counterterrorism and 
counterinsurgency operations in the country including in the 
tribal areas as well as against groups like the Tehreek-e-
Taliban Pakistan, or Pakistan Taliban.
    Fatality rates are actually down somewhat. Lethality rates 
against groups are actually down somewhat. They are still high 
in a few places, including Balochistan.
    But I think what we see is some successful efforts by the 
Pakistan state, in some areas quite lethal, including on human 
rights issues that I think are worth bringing up. But we have 
seen a decrease.
    In neighboring Afghanistan, obviously, the situation is 
different. We are seeing high levels of violence, Taliban 
control of somewhere between 10 to 12 percent of the Afghan 
population, depending on the numbers, and a pretty notable 
decrease in Afghan Government control of populated areas up 
through 2017, about 60 percent of the country, down from nearly 
70 percent about 1\1/2\ years.
    So the situation in Afghanistan is still quite violent and 
the situation in Pakistan, while violent, appears to be--
indicators appear to be lessening.
    Let me talk about next steps, moving forward, and I'll 
skip--the testimony talks about a whole range of issues 
including China-Pakistan cooperation. Let me focus on three 
things in the remaining time.
    One is broader relations with Pakistan. As someone who 
works on security, I do focus a lot on the security 
relationship, both with Pakistan and the region.
    I do think it is important to remember that there are other 
areas of interest with Pakistan. It's got the sixth largest 
population in the world. It's got a GDP of about $300 billion, 
which is on par with South Africa and Colombia. It is a 
reasonable country and it has got a reasonable growth rate of 
about 5\1/2\ percent.
    So there are areas--I think you talk to American companies 
that deal with iron and steel, agriculture machinery, aircraft 
that have an interest in trade, and then we get textiles, new 
apparel, leather products from Pakistan as well. So there's an 
economic incentive to keep a relationship and to keep a trade 
relationship.
    There are also interests in targeting the Islamic State in 
Khorasan Province, which sits really on the Af-Pak border in 
Nangarhar Province, and that has conducted attacks including 
recently in Jalalabad.
    So there are areas, I would say, of some common interest. I 
also think there is probably worth noting that any political 
settlement in Afghanistan almost certainly has to involve 
Pakistan because of its relationship with the Afghan Taliban.
    So assuming there are efforts to improve and establish some 
kind of a peace deal, I think Pakistan is an important partner. 
But let me just say in general that we have a situation, I 
think, with Pakistan that I still find unacceptable.
    The U.S. is fighting a war in Afghanistan primarily against 
the Taliban and Haqqani Network. The leadership structure of 
both groups sits on the Pakistan side of the border.
    That is leader Haibatullah Akhunzada, his chief deputy, 
Siraj Haqqani and Mohammad Yaqub, a range of leaders--Abdul 
Qayyum Fakir, Ahmadullah Nanai, Abdul Latif Mansura--all 
located on the Pakistan side of the border and that has not 
stopped.
    If that does not stop, I think it's worth considering a 
range of issues. I'd like to see a more transparent aggressive 
information campaign in the United States about who is sitting 
in Pakistan, roughly, where they are located, what their names 
are, because I think we have got a lot that we can disclose 
without getting into sources and methods.
    I think there are a range of issues from non-NATO ally 
status to multilateral financial lenders that I'll save for the 
question and answer period.
    But I think it's worth thinking very carefully about an 
escalatory latter with Pakistan if some of that does not 
change.
    Thank you.
    [The prepared statement of Mr. Jones follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Yoho. Thank you for your comments.
    Mr. Smith, if you would.

   STATEMENT OF MR. JEFF SMITH, RESEARCH FELLOW, SOUTH ASIA, 
                      HERITAGE FOUNDATION

    Mr. Smith. No improvement in Afghanistan is possible 
without Pakistan taking control of its border areas. That was 
the unfortunate inalienable truth revealed to the Senate Select 
Committee on Intelligence nearly one decade by then Director of 
National Intelligence Admiral Dennis Blair.
    Sadly, it is as true today as it was then. Military 
strategists are in near universal agreement on this point. 
Nothing offers an insurgency greater vitality than the 
provision of support and safe haven across an international 
border in a neighboring country.
    It is the equivalent of counterinsurgency kryptonite. The 
United States has been pursuing a set of objectives in 
Afghanistan that, by its own admission, are likely to remain 
hopelessly out of reach, absent a fundamental change in 
Pakistan's misguided strategic calculus.
    The reality is there is a glaring fundamental incongruity 
between American and Pakistani objectives in Afghanistan.
    Whereas Washington, Kabul, and most of the international 
community have strived to build a peaceful stable democratic 
Afghanistan, Pakistan's ideal objective is an Afghan Government 
that is pliable, submissive, and hostile to India.
    Since the Afghan people, understandably bitter after over a 
decade of Pakistani malfeasance, are unlikely to elect such a 
government, Islamabad's second order of priorities is to keep 
the country weak, unstable, and divided.
    It sees the Taliban, Haqqani Network, and their fellow 
travelers as the most effective means of doing so and of 
securing its secondary objectives and interests in Afghanistan.
    In 2009, the U.S. Ambassador to Pakistan concluded that 
there was no chance that Pakistan would view any increase in 
aid as sufficient compensation for abandoning support to these 
militant groups.
    The following year, the U.S. increased aid to Pakistan by 
50 percent, from $3 billion to $4\1/2\ billion. That was the 
year 2010, which was telling in two more ways.
    It was the year that U.S. aid to Pakistan reached an all-
time high and the year that U.S. casualties in Afghanistan 
reached an all-time high.
    The Trump administration tried to signal early on that 
business as usual was coming to an end. This is a conditions-
based approach and our relationship with Pakistan will also be 
conditions-based, based on whether they take action, Secretary 
Tillerson explained last year.
    As long-time Pakistan watchers predicted, the 
administration's warnings fell on deaf ears. No, I have not 
seen any change yet in Pakistan's behavior, General John 
Nicholson, our top military commander in Afghanistan, admitted 
in November.
    Instead, Pakistan returned to a familiar play book of 
deflection, denial, conspiracy, and outright threats. If 
President Trump wants Pakistan to become a graveyard for U.S. 
troops, let him do so, the chairman of Pakistan's senate warned 
last August.
    In this context, President Trump's January 1st announcement 
of a suspension of U.S. aid to Pakistan was not only merited 
but long overdue. The time has come to rewrite the terms of the 
U.S.-Pakistan relationship.
    For years, America and the international community have 
bemoaned the Pakistani military's interference in the country's 
politics. Yet, they convinced themselves that as the country's 
real power brokers the military was the only institution 
capable of resolving Pakistan's terrorism problem.
    That experiment has been a failure. The military and the 
ISI have consistently proven to be the source of Pakistan's 
terrorism problem.
    As a result, the most effective points of pressure on 
Pakistan will be those targeting the military brass, 
particularly their considerable interests in and access to the 
West.
    Pakistani officials and experts regularly claim their 
country is prosecuting America's war. Pakistan is not receiving 
aid from the U.S. It is receiving compensation for military 
operations conducted on America's behalf.
    Nation states are obligated to ensure that their territory 
is not being used to launch attacks on other countries. That is 
their sovereign responsibility, not something they are entitled 
to receive compensation for.
    If Pakistan is incapable of or unwilling to exercise 
sovereignty over its territory and prevent cross-border 
attacks, it should not be surprised when others take action to 
defend themselves.
    I have several other conclusions and quite a bit on the 
Pakistan-China relationship in my written testimony that I 
suspect we may get to in Q and A.
    But thank you.
    [The prepared statement of Mr. Smith follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Yoho. No, thank you for your intuition on that and, you 
know, pointing that out because those are things that we need 
to delve into.
    Mr. Laghari, if you would, please.

STATEMENT OF MR. MUNAWAR ``SUFI'' LAGHARI, EXECUTIVE DIRECTOR, 
                       SINDHI FOUNDATION

    Mr. Laghari. Chairman Yoho, Ranking Member Sherman, and 
members of the committee, let me thank you all for inviting me 
to this important hearing on U.S.-Pakistan relations. My focus 
is mainly on Sindh Province.
    Mr. Chairman, Pakistan is a topic of much media discussion. 
But there is little media and political discussion about the 
Sindhis, who comprises about 14 percent of Pakistan's 
population of just over 205 million people.
    Mr. Chairman, Sindhi people believed that becoming part of 
Pakistan would bring an end to religious wars and the 
prevalence of justice and rights. But hostility and tensions in 
the region have never ended.
    The United States can play a very important role in this 
region, particularly to bring about the eradication of 
terrorism and restoration of human rights.
    Mr. Chairman, Pakistan is a de facto military state run by 
its army, Islamic jihadi outfits, protected and promoted by the 
army as assets and as important Pakistani foreign and defence 
policy tools.
    Militant Islam is the most powerful weapon of the Pakistani 
army. Islamic religious organizations have been and will always 
be their assets. They not only use these religious 
organizations against India, Bangladesh, and Afghanistan, but 
also against the United States and Israel.
    Mr. Chairman, Sindh can be contrasted with Pakistan's 
military-dominated state. Jihad, Islam, and the army have 
always been features of the Pakistani army--Pakistani state.
    Sindh's identity has always been peace, progress, 
coexistence, culture, and democracy. Sindh has always been at 
the forefront of pro-democracy struggles against military 
dictators in Pakistan. Sindh played a leading role in the 1983 
movement for the restoration of democracy.
    Mr. Chairman, Pakistan's official language, Urdu, is the 
mother tongue of the Indian Muslim migrants. It is currently 
spoken by only 8 percent of the total population. The state of 
Pakistan imposed Urdu as a tool of cultural repression upon the 
rest of the population--Sindhis, Baloch, Pashtuns, Punjabis, 
Saraikis, and other native languages.
    This was one of the reasons for the separation of 
Bangladesh in 1971. Injustice done to the indigenous languages 
has eroded the cultural identity of Sindh, replaced by the 
violence and extremism.
    The state has captured the interest of Punjabis and 
Muhajirs. Punjab has always been superior. Muhajirs have always 
been privileged. Meanwhile, Pashtuns, Sindhis, and Baloch have 
always suffered.
    Mr. Chairman, as long as you don't understand these ground 
realities, you will not be able to align American interests and 
relations with those of Pakistan.
    Hundreds of Sindhis nationalists are missing in Sindh and 
thousands of Baloch nationalists are missing in Balochistan. 
Their enforced disappearances are part of the so-called 
``strategic depth'' policy of Pakistan's army and ISI because 
these activists are against the multi-billion-dollar CPEC. 
Young Sindhi, Hindu women are being forcefully converted to 
Islam and made sex slaves of Islamic extremists in Sindh.
    Mr. Chairman, it is high time that the United States 
reconsider the nature of their relationship with Pakistan, 
their military, and the ISI. The U.S. should also better its 
relationship with the pluralistic people of Sindh.
    I have many recommendations, which are already in my full 
testimony but I want to mention one recommendation. I want to 
read it here.
    The Pakistani military and ISI should be held accountable 
for fraud and abuse of U.S. resources, equipment, and money, 
which they use to hunt down anti-jihadi, Sindhi and Baloch 
dissidents instead of going against the jihadi and terrorist 
groups including the Hafiz Saeed and Haqqani Network.
    Thank you so much.
    [The prepared statement of Mr. Laghari follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Yoho. Thank you. I appreciate your input.
    Dr. Shah.

STATEMENT OF AQIL SHAH, PH.D., WICK CARY ASSISTANT PROFESSOR OF 
  SOUTH ASIAN POLITICS, DEPARTMENT OF INTERNATIONAL AND AREA 
                STUDIES, UNIVERSITY OF OKLAHOMA

    Mr. Shah. Chairman Yoho, Ranking Member Sherman, 
distinguished members of the committee, thank you for holding 
this very timely hearing on Pakistan and inviting me to 
testify.
    In my testimony, I am going to focus on two key issues--
challenges to democratization in Pakistan and the repression of 
human rights and civil society by security services.
    Pakistan's fragile democracy is facing a serious threat 
from the military once again. The military in Pakistan has 
repeatedly intervened to arrest the development of democracy in 
the country, ruling it directly for almost half the country's 
existence and maintaining a firm grip on national security 
policy and politics for the rest of the time.
    As Pakistan nears a crucial parliamentary election later 
this year, the military's intelligence arm, the Inter-Services 
Intelligence, is reportedly trying to engineer an outcome that 
will undercut the electoral prospects of the ruling Pakistan 
Muslim League of former Prime Minister Nawaz Sharif, with the 
ultimate aim of creating a divided and hung Parliament.
    Mr. Sharif was ousted from office in July 2017 when the 
country's Supreme Court disqualified him from holding public 
office in a corruption inquiry linked to the Panama Papers.
    But the probe that became the basis of the court's decision 
was led by military intelligence officials and marred by 
serious accusations of partiality amid reports of witness 
intimidation and illegal wiretapping of the witnesses' phones.
    But dishonesty is not the reason for Mr. Sharif's or other 
Pakistani politicians' predicament. Instead, it is their 
attempt to wrest authority from the military in matters of 
national security and foreign policy.
    Mr. Sharif has already been deposed twice in the past--in 
1993 by a military-backed Presidential decree and in 1999 by 
General Musharraf's coup--mainly for seeking reconciliation 
with India and for asserting the civilian supremacy over the 
military.
    After resuming office for the third time in 2013, he ran 
afoul of the military once again for making peace overtures to 
India, for calling for an end to undue interference in 
Afghanistan, and his insistence that the ISI stop using a 
jihadi terrorist group like the Lashkar-e-Taiba as proxies to 
promote perceived national security goals which he believes has 
eroded Pakistan's internal coherence and international 
credibility.
    But rather than acting against these violent extremists, 
the military has now sought to convert them into political 
parties. The aim is to shield these groups from international 
sanctions and to balance and counter politicians like Sharif 
and others.
    If parliamentary elections take place as planned in mid-
2018, it will be Pakistan's second transition from one elected 
government which has completed its term to another--a milestone 
in a country where all previous transitions to democracy were 
aborted by military coups or intervention.
    Pakistan achieved its first one in 2013. A second 
transition is more crucial because it would show that the 
country's political leaders and parties are unconditionally 
committed to democracy even when they lose elections and signal 
to the military that Pakistanis have the right to 
democratically change their leaders.
    Elections, obviously, do not equal democracy. But regular 
elections can help solidify democracy by habituating 
politically significant groups such as political parties, the 
military, and civil society to the fact that democratic 
procedures and norms are the only game in town.
    The experience of other military-dominated parties in Latin 
America and Asia shows that the certainty of the electoral 
process can empower democratically-elected leaders to 
successfully roll back the institutional prerogatives of the 
military.
    Besides, violent extremists are less likely to find easy 
refuge in a democratic Pakistan. The stronger that Pakistan's 
democratic institutions become, the less room the Pakistan 
military and its ISI will have to use jihadi proxies both for 
domestic and foreign adventures.
    Coming to the repression of human rights, the human rights 
situation in Pakistan is, obviously, dismal. The Pakistan 
military's continued institutional power and entrenched 
assumptions of impunity mean that human rights are likely to 
continue to deteriorate in the coming year.
    Particularly alarming is the issue of enforced 
disappearances of Baloch and Sindhi dissidents, social workers, 
peace activists, and journalists.
    There are official mechanisms that can address these human 
rights violations including the National Commission for Human 
Rights and the Official Commission of Inquiry on forced 
disappearances.
    But their authority is limited by constraints both 
budgetary and the fact that they are unable to prosecute 
military officers.
    For too long the United States has focused narrowly on 
security in Pakistan, which has invariably meant a military-
centric relationship at the expense of civilian democratic 
governance.
    I would recommend that Congress ensure that U.S. election 
monitors such as NDI and IRI coordinate their efforts with 
international observers for the next elections to closely 
assess and monitor the electoral process. Congress should also 
review the composition of aid to Pakistan and, lastly, the U.S. 
should work with its allies to urge Pakistan to strengthen the 
Commission on Forced Disappearance, the National Human Rights 
Commission, and to urgently ratify the International Convention 
for the Protection of all Persons from Enforced Disappearances.
    Thank you.
    [The prepared statement of Mr. Shah follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Yoho. Thank everybody for being on time with your 
statements and your passion. I appreciate that.
    This is something, as you guys have all pointed out, that 
we have seen.
    Dr. Jones, I believe you were talking about how the attacks 
are down in Pakistan, are they down because the attacks in 
Afghanistan are going up? Are they just shifting?
    And then, Mr. Smith, I think it was you talking about the 
foreign aid--that we have had areas or times where we have had 
a lot of foreign aid going into Pakistan, we have had times 
where there was none going into Pakistan, and then we had 
moderate amounts. But yet, the situation hasn't changed.
    So it kind of makes me think foreign aid is not the answer 
to this to get people to come to the table, and we have seen 
the response of Pakistan.
    How should Congress interpret Pakistan's move to double 
down on its relationship with China as tensions with the United 
States rise?
    We will go with you, Mr. Smith, first.
    Mr. Smith. It's a great question and, you know, I think 
China has often been looked at as one of the few potentially 
effective avenues or mechanisms to effect in real change in 
Pakistan because they do have a great deal of influence. They 
do give a great deal of money, like the U.S. But unlike the 
U.S., they are popular in Pakistan among the elite and the 
public.
    But what I think often gets lost in that discussion is 
that, and Andrew Small, I think, put it best when he said the 
Pakistan-China relationship is exactly as close as China wants 
it to be.
    Mr. Yoho. Right.
    Mr. Smith. I don't know that Beijing is eager to see a 
fundamental rupture in U.S.-Pakistan relations and for it to 
assume responsibility as the sole patron of Pakistan and their 
commitments and responsibilities that come with that.
    Its support for Pakistan has already cost it in its 
relationship with India. It has cost it in the international 
community in some regards and it cost a great deal financially 
in some regards.
    And I think another thing often lost is that the Chinese 
public views Pakistan just about as favorably as they view 
India, which is a historic rival of China, and far less 
favorably than they view the U.S.
    So there is popular opinion in China to a degree that 
influences elite opinion as well, even if it's not a democracy.
    So I think in some ways a rupture in U.S.-Pakistan 
relationships that pushes Pakistan further toward China could 
actually expose some tensions in that relationship and may make 
China a more willing cooperator or collaborator.
    Mr. Yoho. And you brought up a good point. They've got such 
an influence that they can, and I think what they will find out 
in Pakistan and other countries with this One Belt One Road, 
it's a one-way street that heads toward China for China's 
benefit.
    Although they can do great things with that, I think it's 
something that we should point out. The Gwadar Port shows that 
there is a close link to the Chinese military ambitions.
    You know, I remember sitting with the Chinese Ambassador 
talking about the Spratly Islands. He said it was strictly for 
peaceful navigational purposes. We know that's not true and we 
have seen that repeated over and over again.
    Let me see. This will be for Dr. Shah. Is the U.S.-Pakistan 
relationship at the point of no return and do you believe that 
it's still accurate to call Pakistan an ally, given its history 
of the two-faced dealings on the war on terror?
    Mr. Shah. That's a tough question.
    So Pakistan, as you are all aware, has kind of been, as 
some people call it, a friend and an enemy, or a frenemy. So it 
has, you know, willingly cracked down on terrorists and 
militants that attacked the Pakistani state while keeping, 
protecting, and sponsoring other groups like the Haqqani 
Network that hurt Indian and Afghanistan.
    U.S.-Pakistan relations have seen a kind of rise and fall 
throughout history. But I would imagine that it's not a 
breaking point yet that the U.S. could still do things that 
might turn the kind of direction of the Pakistani state around, 
especially as I emphasized by promoting democracy, which has 
been missing from U.S. assistance to Pakistan for quite some 
time.
    There was a short period that the Kerry-Lugar-Berman 
Enhanced Partnership Act that was emphasized for 5 years.
    But I think the real key is to have a long-term commitment, 
an unconditional commitment to democratization in Pakistan and 
to build relationships with civilian leaders and civil society.
    Mr. Yoho. I hope we can come back to that question there.
    And I want to go to Dr. Jones. What would be the 
implications of stripping Pakistan of its status as a major 
non-NATO ally, which it acquired in 2004, thus ending its 
preferential access to American weapons and technologies?
    Mr. Jones. Well, look, I think if that--the step of 
suspending or even terminating Pakistan status as a non-NATO 
ally was part of a series of escalatory steps and that went 
further, if it made no difference, Pakistan is not on the U.S. 
State Department list of state sponsors of terrorism. But we 
know.
    I was in the U.S. Government. I mean, there is a lot of 
evidence to suggest that they do support Lashkar-e-Taiba, the 
Taliban, the Haqqani Network.
    So my answer to you is I don't know that it would have an 
immediate step of revoking it. I think it would; Pakistan could 
get that assistance potentially elsewhere, including from the 
Chinese.
    But if it's part of a process that is politically isolating 
Pakistan, I don't think that would be in their interest, over 
the long run.
    Mr. Yoho. I agree with you, and thank you.
    We will next turn to the ranking member, Mr. Sherman.
    Mr. Sherman. Two thousand years ago, the greatest imperial 
power was Rome and all roads led to Rome. Today, all roads and 
belts lead to Beijing.
    In most places the country has an army. In Pakistan's case, 
the army has a country.
    I am concerned with the efforts of elites in Islamabad to 
compel the use of the Urdu language nationwide. They tried that 
on what was then called East Pakistan. It is no longer referred 
to as East Pakistan.
    Last year, seven Members of Congress signed a letter 
condemning human rights violations in Sindh, especially 
regarding forced disappearances, missing persons, and religious 
extremist attacks on minorities.
    Mr. Laghari, what can the U.S. do to help improve human 
rights in Sindh?
    Mr. Laghari. I think one great effort is already done for 
the first time ever after the British. The U.S. Consulate of 
Karachi Web site in Sindhi, credit goes to this committee or 
Congressman Brad Sherman and Adam Schiff and Congressman Dana 
Rohrabacher, who signed those letters.
    I think that they still need authorization from the 
Appropriations Committee about the Voice of America program in 
Sindhi.
    That is needed because there is no voice for the Sindhi 
peoples and I really highly recommend it and this committee can 
try to ask the State Department or the Voice of America that we 
start a Sindhi program in Voice of America.
    Mr. Sherman. I would point out that we have reduced our 
cost of foreign aid to Pakistan by many hundreds of millions or 
billions of dollars a year.
    In my work on this, I have seen a need for maybe $1\1/2\ 
million to communicate with 30 million-plus Sindhi speakers. 
Should we also have a Baloch radio service as well? I'll ask 
Mr. Laghari and also Mr.--Dr. Shah.
    Mr. Shah. I mean, I don't think it'll hurt to have such 
programming. But the problem in Balochistan is, obviously, 
deeply rooted in the Pakistani state's repression of legitimate 
Baloch demands for autonomy and a share of the resources.
    This is a province that now produces I think, if I am not 
wrong, about 36 percent of Pakistan's natural gas. But it 
receives a tiny--a pittance in revenues from Islamabad.
    And the military systematically abuses human rights in 
Balochistan. Baloch dissidents have been kidnapped, tortured, 
and then dumped on the roadside, and in some cases their bodies 
had engraved on them ``Pakistan zindabad'' or, you know, ``long 
live Pakistan.''
    So Baloch alienation, you know, is growing and this is a 
middle class insurgency, by the way. The doctors, engineers, 
and professionals have taken up arms against the Pakistani 
state.
    And so, first of all, I think there is a need to outrightly 
condemn human rights violations in Balochistan, the rest of 
Pakistan, and to pressure Pakistan to at least respect its 
obligations to the international community in terms of 
following--in terms of adhering to the norm of human rights 
protection.
    Mr. Sherman. The Punjabi represent about 53 percent of the 
country. Do they represent a disproportionate percentage of the 
army, the ISI, and especially the officer corps?
    Mr. Shah. Historically, that has been the case. The army 
does not release the ethnic composition of its officer corps.
    But estimates have ranged from 70 to 80 percent Punjabis 
and then Pashtuns form about 15 percent, and the last 5 percent 
would be some Sindhi and Baloch and Muhajirs, I believe.
    Mr. Sherman. I'll go down the row. Does anyone here think 
that over 10 percent of the officer corps is made up of persons 
other than Pashtun and Punjabi?
    Dr. Shah, you said----
    Mr. Shah. No.
    Mr. Sherman. No? For the record, Mr. Laghari says no. Mr. 
Smith? Dr. Jones?
    So you have certain ethnic groups controlling the army and 
then the army controls the country, and then you sometimes call 
it a democracy.
    I believe my time has expired.
    Mr. Yoho. Thank you.
    We will next go to Mr. Rohrabacher from California.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    President Trump has sent a message, a long overdue message, 
to the clique that rules the day in Pakistan, and now, today, 
the United States Congress, from this committee, is sending the 
same message.
    The clique that is ruling in Pakistan, this clique of 
Punjabis, rule with an iron fist. They are terrorists to their 
own people and they are corrupt.
    They are not a legitimate government and should not be 
treated as a legitimate government but instead, a pariah that 
is not in the interests of its own people and certainly not in 
the interests of the United States.
    We have, over the years, given to them every benefit of the 
doubt we could. When I arrived here three decades ago, many 
people believed I was Pakistan's best friend on the Hill.
    I was. We were deeply involved in Afghanistan and I spent a 
lot of time and effort on that particular issue. But over the 
years it has become very clear to me that Pakistan is the root 
of the problem in Afghanistan.
    The ISI and the Pakistani Government, which are synonymous 
in so many ways, have been at fault for keeping this conflict 
going and going and going.
    So we are talking about thousands and thousands of lives 
lost. We mentioned Dr. Afridi today. Dr. Afridi is symbolic of 
all of this.
    If you have a group of gangsters who have taken someone 
like a doctor and put him in prison, in a dungeon, because he 
helped discover and helped disclose the murderers of 3,000 
Americans, well, what does that indicate to you about the 
people who put him in that dungeon?
    It is time for us to side with the people who are repressed 
by this, what I say, clique that rules--the regime that rule 
Pakistan. We need to side with the Baloch, who have their young 
men and women grabbed, murdered, and then dumped on their front 
lawn.
    We have got a group in Karachi, the MQM movement, that's 
basically a group of people that wanted to live with enterprise 
and have a zone where they could deal with the world in a 
commercial way and they are finding their people murdered.
    They are finding their lives repressed by a small group of 
Punjabis who are--basically, many of them don't even pay taxes 
in their country.
    We have spent $33 billion for Pakistan since 9/11--$33 
billion--and they, with $33 billion, could not even get 
themselves--couldn't get themselves to help us destroy the 
poppy crops--the opium that is grown on the Pakistan-Afghan 
border.
    Now, this has been a travesty. Our policy has been a 
travesty of cowardice or ignorance, on the part of the United 
States, that we are supporting such a regime. And I would hope 
that instead that we send a message to the Sindhis, to the 
Baloch, to the MQM and others in Pakistan--and there are small 
minorities of other faiths that are there that are being 
murdered all the time. Christians have been murdered in 
Pakistan at will and there's never anybody arrested for it.
    So with this thought, Mr. Chairman, I'd just like to ask 
the panel--I got 1 minute left so it's going to have to be yes 
or no--do you think the United States should drop its, how do 
you say, official relationship with Pakistan and begin dealing 
with those elements in Pakistan that believe in democracy and 
represent the people of their country--the Baloch, the Sindhis, 
the MQM, et cetera?
    Yes or no? You have 30 seconds. Go ahead.
    Mr. Jones. I mean, I think the U.S. should--would work at 
those levels, work with the--need to talk to the government but 
needs to also talk with the----
    Mr. Rohrabacher. I agree, because I don't believe that 
those people have power in Pakistan or the government. In the 
United States we believe government derives its just powers 
from the consent of the governed and that's not what you have 
in Pakistan. You have people who are being terrorized by that 
clique.
    Mr. Smith.
    Mr. Smith. I would second the comments of my honorable 
colleague.
    Mr. Laghari. I agree with you, except it's difficult 
because they are so involved in terrorism and tortures in the 
Sindh Province. But I have no problem with the Muhajirs, the 
common Muhajirs, the identities, the main issues, this is my 
stand--and I think the United States also must play very 
importantly in the relationship.
    We don't want to see another Taliban or the Rohingya type 
in Karachi or those things. This is my concern. And thanks, I 
agree with you. So we have to cut off the official 
relationship.
    Mr. Rohrabacher. We see the Taliban emerging in Karachi. 
You can guess who's really behind it. One last----
    Mr. Shah. I wanted to add to your concerns. Pashtuns in the 
Federally Administered Tribal Areas have also been subjected to 
systematic human rights violations.
    As we speak, thousands of Pashtuns gathered in the capital 
of Islamabad seeking justice for a young man who was killed 
extrajudicially, partly because his name sounds--his name is 
the same as the leader of the Pakistani Taliban, Mehsud.
    And so in Karachi these human rights violations have been 
carried out by the security services against Pashtuns as well.
    I don't think we should sever our relationship with 
Pakistan but I think there is a need to seriously think about 
shifting our focus to dealing with and building our 
partnerships with civilian and political leaders, civil 
society, the media, professional associations, other NGOs like 
the Human Rights Commission of Pakistan.
    Mr. Yoho. We'll come back to that. We need to move on.
    Next, we will go to Mr. Suozzi from New York.
    Mr. Suozzi. Thank you, gentlemen. Thank you, Mr. Chairman.
    I want to get a little bit of more information from each of 
you.
    So I have three areas that I want to explore. One is you 
talk about, you know, we should continue to try and work with 
the government.
    But there is a big difference in the government between the 
military and the civilian government. So I wanted you just to 
expand a little bit between the difference between the civilian 
and the military government.
    Number two is, you know, we want to do a lot--want to see 
them do a lot better job of policing their borders between 
Pakistan and Afghanistan.
    Now, we have been having a hard time with our borders in 
the United States of America and there is a very long border in 
Pakistan as well. What can be done--what should the Pakistan 
Government be doing more effectively to secure their long 
border with Afghanistan.
    And I'll ask you, Dr. Jones, first and then I am going to 
ask another question afterwards if I still have more time.
    Mr. Jones. Sure. On the civilian and military, I think the 
U.S. has traditionally had a much closer relationship with the 
civilian side in general.
    Problems with the military have particularly been the ISI, 
the Inter-Services Intelligence director, which has----
    Mr. Suozzi. The U.S. has always had a very close 
relationship with the military as well.
    Mr. Jones. Well, with some parts of the military. But I 
think when it comes to military intelligence that's where the 
biggest source of friction have been on support to groups 
operating in Afghanistan, Haqqani's Taliban itself.
    That's been a breaking point, I think, and continues to be 
a source of significant friction.
    Mr. Suozzi. So think of other relationships that were built 
during the war in Afghanistan with the Russians and, you know, 
Pakistan supporting the mujahideen and the relationships that 
were built. Those relationships still exist. How do they undo 
those relationships and get rid of the people that we are 
having a hard time with?
    Mr. Jones. Well, look, there is a strategic rationale for 
why Pakistan continues to support these groups. They are 
pursuing Pakistan's foreign policy interests in Afghanistan as 
they are in India with Lashkar-e-Taiba.
    There could be a strategic rationale to change that kind of 
support. It is undermining U.S. interests in Afghanistan. It is 
undermining Afghan interests. It's undermining regional 
interests. That's a strategic decision I think that goes well 
beyond any kind of historical ties.
    Mr. Suozzi. And what about the practical questions related 
to securing the border? What would you like to see happen more 
that's not happening?
    Mr. Jones. I'd like to see Pakistan conduct intelligence, 
surveillance, reconnaissance to Taliban Haqqani members 
crossing the border.
    They have the capability to do that. They haven't done it. 
They are also trying to build a wall right now. You know, it 
may be worth looking closely at, but it has to be on a 
conjunction with Afghanistan.
    Mr. Suozzi. Mr. Smith.
    Mr. Smith. I think in some ways it gets to the question of 
what is the military's cost-benefit calculation, and to date 
they have not borne significant costs for their policy of using 
Islamist militant as an extension of foreign policy.
    They have gotten benefits from that strategy but they 
haven't borne costs.
    Mr. Suozzi. Do we think that's a policy that is promoted 
more by the military than by the civilian government?
    Mr. Smith. Absolutely. Absolutely.
    Mr. Suozzi. And then how about securing the border? Do you 
want to add anything to that?
    Mr. Smith. I have nothing to add. But I am sure U.S. 
military commanders have a lot of suggestions for how Pakistan 
could better secure that border.
    Mr. Suozzi. Mr. Laghari?
    Mr. Laghari. I think--even if you keep the relationship 
with civilians but the control is with the Pakistani military 
and even in the military, the ISI is in control of the 
military. So it's very difficult to control this ISI.
    Mr. Suozzi. Is there a big tension between the civilian and 
the military government in Pakistan?
    Mr. Laghari. In the last 70 years, if you see any one 
single election, fair election happen in Pakistan, that time in 
1970 and Pakistan breakup.
    There is no fair--after even it is controlled by the 
Pakistani interests--if you can control through the ISI then 
you can maybe say that we can build a good relationship with 
the Pakistani military or ISI.
    Mr. Suozzi. Dr. Shah.
    Mr. Shah. Let me clarify that the ISI is actually part of 
the military's chain of command. It's not a rogue agency. Its 
head is a three-star general who goes back to the regular 
military.
    And, you know, in terms of the U.S.-Pakistan relations, I 
mean, there hasn't been a Pakistani dictator that the United 
States hasn't been in love with and the relationship has been 
completely military-centric.
    That's my one point, and there are deep tensions between 
the civilians and the military.
    On the border, I think there is a question also of 
willingness. It's not just a matter of capabilities. Does 
Pakistan really want to achieve those objectives that you 
identify to stop and prevent the Haqqani Network.
    I think it's the opposite. They actually facilitate their 
insertion into Afghanistan.
    Mr. Suozzi. Who are two or three people--do I have a few 
more seconds, Mr. Chairman?
    Mr. Yoho. Yes.
    Mr. Suozzi. Who are two or three people that you think are 
the best people for--if a Congressperson was to go visit 
Pakistan, who are the two or three best civilian people that 
you think we should talk to?
    Go ahead, Dr. Shah.
    Mr. Shah. I would suggest not focusing on individuals but 
institutions to build relations with the Pakistani National 
Assembly, their politicians who--in both the Pakistan Muslim 
League and Pakistan People's Party or former Prime Minister, 
late Benazir Bhutto, who understand the urgency of ridding 
Pakistan of extremism who want to have a peaceful relationship 
with India, want to end interference in Afghanistan.
    So I think it's a matter of building ties with institutions 
more than individuals.
    Mr. Suozzi. Do you want to add anything, Dr. Jones or Mr. 
Smith or Mr. Laghari?
    Mr. Jones. No, strongly agree institutions and strongly 
agree with organizations like the Senate.
    Mr. Laghari. I also agree about the judiciary, too.
    Mr. Suozzi. All right. Thank you, Mr. Chairman.
    Mr. Yoho. Thank you.
    We will next go to Ms. Wagner from Missouri.
    Ms. Wagner. Thank you, Mr. Chairman, for organizing this 
hearing and I appreciate your continued attention to our--what 
I'll call changing relationship with Pakistan.
    Mr. Smith, you recently wrote that you foresaw stronger 
Indo-U.S. and Sino-Pakistan ties as the balance of power in 
Asia shifts.
    We can already see that China is investing staggering 
amounts of money--over $50 billion--in Pakistan and has been 
especially active in the port town of Gwadar.
    What kind of game is China playing with Gwadar? Is it an 
attempt to isolate India or is China laying the groundwork for 
long-term competition with the United States?
    Mr. Smith. I think China has both commercial and military 
interests in the port of Gwadar. You know, going back a decade, 
a lot of Indian strategists were concerned about and publically 
complaining about the possibility China would build a string of 
pearls--port facilities and logistics facilities--along the 
Indian Ocean rim and those concerns were sort of downplayed at 
the time.
    But I think they may have just come a decade too early 
because what we have seen in recent years is that China does 
have plans for military facilities and installations.
    Ms. Wagner. I should say so. President Trump has advocated 
for a 350-ship navy. Given that China seems to have designated 
Gwadar a future PLA naval base, are we doing enough to prepare 
for China's creep westward?
    Mr. Smith. Well, one of the things we should be doing and 
we are doing--I would commend the Trump administration on 
this--is strengthening our partnership with India across all 
the services political, civilian, military--that in some ways 
we see India as a net provider of security in the Indian Ocean 
and that partnership has made really dramatic progress over the 
past 10 years.
    And I think we have a unique situation with Prime Minister 
Modi in India and this Trump administration very bullish on the 
India relationship, to move that forward. That, more than 
anything--a strong U.S.-India partnership, will secure our 
interests in the Indian Ocean.
    Ms. Wagner. I have several more questions.
    Last fall, Pakistan refused to capitulate to China's demand 
that it accept Chinese currency within the Gwadar free zone.
    Dr. Shah, do you see Beijing's funding conditions for the 
China-Pakistan economic corridor becoming a wedge issue that 
inhibits cooperation between the two countries?
    Mr. Shah. There have been reports of rising tensions. 
Pakistan also refused Bhasha Dam. I think the Chinese helped in 
that because the conditions were too stringent.
    Pakistan's ministry for shipping told the Senate that 90 
percent of the revenue from Gwadar will go to China. So I think 
Pakistani officials are beginning to realize that this is 
really not about Pakistan's economic development per se but 
it's about Chinese commercial economic interests.
    And so there is tension also amongst the smaller provinces 
because they feel like, again, this project has been hijacked 
by the Punjab and left them out of the loop. So there is 
domestic tension but there is also frictions with China on 
certain issues including the currency issue.
    Ms. Wagner. I've got several more questions to whomever can 
best answer. Would you recommend that Congress spell out 
specific conditions on our funding to Pakistan in the upcoming 
appropriations process? Mr. Laghari.
    Mr. Laghari. I think especially about the human rights 
situations. They should put the condition on that one. And the 
Sindhi and Baloch disappearance issues is very critical.
    Ms. Wagner. Sir, as you well know, the systematic human 
rights abuses perpetuated by the Pakistani military, I mean, I 
am interested in reforming our IMET military education program 
to better train participating officers from Pakistan and around 
the world on human rights.
    What steps does the Pakistani military need to do to 
respect the fundamental rights?
    Mr. Laghari. I haven't seen any delegation from the U.S., 
even the Karachi Consulate or the Islamabad Ambassador. They 
have to meet at least the disappeared person's families or the 
extrajudicial victim's families.
    That will go to the message to the Pakistani Army that the 
U.S. is really concerned about the human rights situation and 
whatever equipments and training the U.S. is giving to the 
Pakistani military or the police and the law enforcement 
agencies.
    Ms. Wagner. I appreciate it. I'd be interested in all of 
your perspectives on this. But let me just get this last 
question in.
    Just 2 days ago, the Pakistani Taliban claimed 
responsibility for a suicide attack that killed 11 soldiers in 
the Swat Valley.
    Dr. Jones, a few years back, you wrote that Pakistan had 
used proxy warfare to try to inspire regime change in 
Afghanistan. Is it still doing so and do you think the U.S.'s 
new positioning could encourage Pakistani counterterrorism 
efforts?
    Mr. Jones. I think Pakistan does continue to use proxy 
organizations, particularly in Afghanistan and India. Pakistan 
has shown a willingness to conduct counterterrorism operations 
against groups that threaten the state--groups like the 
Pakistan Taliban--but not against groups that they use as 
tools.
    So they differentiate between terrorist groups. I think the 
challenge for the U.S. is to try to get them to stop supporting 
groups undermining U.S. interests.
    Ms. Wagner. Here, here. Thank you very much, Mr. Chairman.
    Thank you for letting me go over. I yield back.
    Mr. Yoho. Absolutely, and I appreciate your input and I 
thought those were great questions.
    You know, what we have seen is--and I think it was Mr. 
Laghari, you brought up one of the shortfalls of our foreign 
policy and most grave is us not understanding the local 
cultures, tribe mentality, or the power structures that we 
don't have here and we have seen this repeated in Afghanistan.
    We have seen it repeated all over the Middle East, and you 
would think, you know, one of the things that would bring us 
all together would be to have a common goal in stomping out 
radicalism in any shape and form--that we'd all come together 
and we could agree on that and then move beyond that and focus 
on economies and trade and cultural exchanges.
    But I don't see that happening and what we have around the 
world is people have hijacked religions or bastardized them.
    We have seen what the radicals have taken with Islam. But 
we have also seen them do that with democracies, and both of 
them have gotten a bad name.
    You know, we heard in other meetings that democracy is a 
failing structure and China is promoting that. Yet, what we see 
around the world in so many countries is not a true democracy, 
you know, where the people are empowered.
    What we see in so many countries is the government is still 
in power but they want to call it a democracy and when it 
doesn't work they blame democracy instead of their small 
thinking and they don't empower their people.
    And what I've seen is people--governments are afraid to 
empower people that haven't formed a government like ours from 
the bottom up, and we are just so blessed in this country that 
we have empowered our people and we give people the right to 
have the control of the government. And it's just such a 
foreign concept to so many countries.
    Moving forward, I didn't have a question with that. That 
was more just of a statement, in case we ran out of time.
    But what I want to ask all four of you, if you will, is 
what are your thoughts about Pakistan, you know, knowing Dr. A. 
Q. Khan and the work he's done and the laxity of what's going 
on in there and not knowing who the power structure is--we know 
it's in the hands of the military. But we see one of the groups 
growing as one of extremists as a candidate.
    What are your thoughts about the nuclear arsenal being 
passed off to the wrong hands and what can the U.S. do about 
it?
    We will--go ahead. We will start with you, Mr. Laghari.
    Mr. Laghari. Yes. This is a very interesting question for 
me. I think if you look at it, we are talking about Iran and 
North Korea. But who gave the nuclear--all those things from 
Pakistan?
    Mr. Yoho. Exactly.
    Mr. Laghari. And this is not--I don't think that just A.Q. 
Khan definitely is involved but also the Pakistani military and 
ISI. Without their permission they can't even transfer their 
things from the airport or anything--their taking the bags and 
those things.
    And one more threat I think would be if that nuclear 
arsenal is controlled by the Taliban or by the extremists or 
the Islamic fundamentalist groups, then it will be very, very 
dangerous and horrible for the whole world.
    And instead of that, if you look at when these nuclear 
tests in 1998 that happened, even the chief minister from the 
Balochistan, the Pakistani Government haven't asked from them 
that we are doing this one.
    So imagine that democracy or how they are treating the 
people in Sindh or Balochistan or a similar province. My 
suggestion, focus on the common people's educations and human 
rights. But nuclear things is a very, very dangerous thing. If 
it is not controlled----
    Mr. Yoho. Right. Let me ask, does anybody else want to 
weigh in on that?
    Mr. Smith. Brief remark. This has, obviously, been a sort 
of omnipresent concern for a long time. Our military and 
intelligence folks here seem to think that the Pakistanis have 
reasonable confidence in the processes and procedures to 
control the nuclear weapons.
    But were the country ever to descend into chaos, you know, 
all bets are off. One thing I would note is that China 
continues to supply Pakistan with nuclear reactors, what many 
believe is in contravention of its commitments to the Nuclear 
Supplier Group, which it joined in 2004 and it continues to 
block India's bid to join the Nuclear Suppliers Group, 
insisting that Pakistan should be given a chance, too.
    And of course, Pakistan's record on nonproliferation 
suggests that it should not be given consideration.
    Mr. Yoho. Yes. Go ahead, Dr. Jones.
    Mr. Jones. Just briefly, I mean, my understanding, even 
during my time in the U.S. Department of Defense, is that 
Pakistan had reasonable oversight over its nuclear 
capabilities.
    However, look, if the U.S.-Pakistan relationship 
deteriorates, as it may, I think it had to be made very clear 
to Islamabad that the proliferation of material--nuclear 
material or dual-use technology that gets out of Pakistan will 
be dealt with harshly.
    Mr. Yoho. Harshly.
    Mr. Jones. Harshly. And that needs to be made, I think, 
clear, publicly.
    Mr. Yoho. Unfortunately, that is one of those weapons that 
we wish we could uninvent but we can't. We are here and we have 
got to deal with it and we have to have the safeguards in 
place.
    If you guys will bear with us, we are going to go to Mr. 
Sherman now for another round.
    Mr. Sherman. Are the major political parties in Pakistan 
dedicated enough to democracy to work together for democracy? 
Or are any one of the major parties willing to team up with the 
military if they can just get a piece of power?
    I'll ask Dr. Shah.
    Mr. Shah. Well, I think that the Pakistan Muslim League, 
which is the ruling party--the Pakistan People's Party which 
was, until recently, the other major party--I think are 
sufficiently committed to the process of democracy and have 
come to the consensus that a military intervention would be 
unacceptable. So at times----
    Mr. Sherman. So either one of them would prefer the other 
one be in power than that the military be in power and they 
could be kind of junior partners to the military?
    Mr. Shah. Absolutely. I think those two parties are 
committed to that. But there is a third force in politics now 
where the cricketer Imran Khan, who, you know, empathizes with 
the Taliban and--he has been teaming up with the military to 
undermine elected governments and every time, you know, the 
military and civilian frictions rise, he starts questioning the 
very legitimacy of the democratic process, the elections being 
unfair.
    So yes, the major parties are committed but there are 
problems with his party called the Pakistan Tehreek-e-Insaf, or 
Pakistan Movement for Justice.
    Mr. Sherman. But not so much justice as--is he motivated by 
Muslim extremism or is it just a cozy relationship he has with 
the military?
    Mr. Shah. I don't think he's driven by Islamic extremism 
but he's expressed views in the past that are troubling. For 
instance, he's said that the Taliban are justified in carrying 
out jihad in Afghanistan.
    So, you know, but----
    Mr. Sherman. I might add that if somebody said that in the 
United States we'd call it Muslim extremism.
    But let me go to Mr. Laghari.
    Mr. Laghari. There is--the democracy in Pakistan is very 
unique. If you see recently, just currently, their chief 
minister in Balochistan he received only 450 votes and only one 
seat and he became chief minister--450 votes. This is very 
rare.
    And the second thing, not many religious parties in the 
parliament--not many religious means the Jamaat-e-Islami or 
those organizations.
    But two other factors are very impactable in democracy. One 
is corruption. Now it is the Pakistani former President Asif 
Zardari. He collect lots of money through corruption. And also 
Nawaz Sharif. I also suggest they be researched on the 
corruption in Pakistan----
    Mr. Sherman. The choice between an undemocratic military 
and the two leading political factions involved seem to be 
involved in corruption.
    I'll be meeting at 4:45, and any member of the committee is 
welcome to join me, with Bilawal Bhutto Zardari. So I'll ask 
Mr. Smith and Dr. Jones what should I know about this gentleman 
and what questions should I ask.
    Mr. Smith. There actually is an interesting story about----
    Mr. Sherman. I mean, here his mother is killed. His father 
was in jail.
    Mr. Smith. Yeah.
    Mr. Sherman. Gee, and sometimes I think being a politician 
in the United States is tough. Go on.
    Mr. Smith. Well, back in 2008, President Zardari issued an 
order that would have brought the ISI--shifted control of the 
ISI from the prime minister's office, where it ostensibly 
resides today, to the interior ministry, which many interpreted 
as an attempt by the civilian government--a rare attempt by the 
civilian government maybe to exert some authority over the ISI.
    Within 24 hours, he received a letter from the military 
essentially telling him absolutely not--rescind your order 
today, and he did. He did.
    There have, since then, as far as I know, been no attempts 
by the civilian governments or the political parties to unite 
in an attempt to present a united front against the military. 
That simply has not happened.
    Mr. Sherman. Dr. Jones.
    Mr. Jones. Yes. I mean, I think it's worth asking and 
trying to get the pulse of this year's elections. I mean, they 
are coming up. Is his assessment likely to be we are going to 
see competitive, free, and fair elections? What are going to be 
the obstacles?
    I mean, he's had a long--that family has had a long 
historical--both has been victorious and also felt the brunt of 
the Pakistan political system. So I would ask about the 
elections this year.
    Mr. Sherman. Mr. Laghari, Dr. Shah, anything to add?
    Mr. Shah. He has made the right statements recently both in 
favor of the democratic process, minority rights, and as well 
as--I forget now. Sorry, my mind has blanked out. I apologize.
    So he's made the right noises about democracy, human 
rights, minority rights, freedom of the press, which has 
historically been the Pakistan People Party's kind of trend to 
support human rights because it used to be quite left of the 
center but is now a centrist moderate force.
    I would ask him about the performance of the Sindh 
government because there are serious concerns about the--the 
PPP is in power in Sindh but there are serious concerns about 
poor governance and corruption.
    So I would--I would probably raise that, too.
    Mr. Laghari. I want to add two things. One is the 
government in Sindh is PPP and there is no single statement 
from the--neither from Bilawal Bhutto nor from the chief 
minister about the disappearances.
    And the water issue is very serious. The poison kind of in 
the whole Sindh, and even from the judiciary they are asking 
but there is no progress about that one.
    Mr. Sherman. Gotcha. Disappearances and water. And I might 
add I've been working to try to get broadcasting into Pakistan 
24 hours in all the major languages and I've been told, oh, 
it's so expensive--it could cost over a $1\1/2\ million.
    Not per language, not per year--you know, per year per 
language--and that's--I think that's rounding error on the 
foreign aid and military aid. So something we can certainly 
afford to do, and I have a feeling I'd rather have a good 
relationship with the Pakistani people than with the folks that 
have put Dr. Afridi in jail.
    And with that, I yield back.
    Mr. Yoho. No, those are some good points and ideally, 
that's what we'd like to accomplish is have a vibrant democracy 
over there in the form that fits their country best to empower 
their people the best so it brings stability around the region, 
around the world.
    And I just know that what we are doing we have got to 
change to continue down this path. We are not getting the 
results that we are looking for and, you know, it just leads to 
destabilization around the region if not the world.
    And so our recommendations will come out of this meeting. 
Hopefully, you'll be able to see them, and we just want to let 
you know how much we appreciate the panelists--the witnesses, 
you guys being here with your input.
    We value it very much. We value your time, and so thank 
you.
    And with that, this meeting is adjourned.
    [Whereupon, at 3:26 p.m., the committee was adjourned.]

                                     
                                    

                            A P P E N D I X

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
